Supreme Court, U.S.
FILED

AUG 1 7 2020
No.

30-3N

OFFICE OF THE CLERK

In the
Supreme Court of the United States

AKBAR GHANEH FARD,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eleventh Circuit

PETITION FOR A WRIT OF CERTIORARI

Akbar Ghaneh Fard
Pro se
1699 W. Oak Dr. Unit 257
Dalton, GA 30721
(813)468-5919
ghaneha@hotmail.com

August 17, 2020

i

QUESTIONS PRESENTED
1. In competitive government procurement programs, does a government
contractor “defraud” the Government by practicing conservatism in the
bidding process and reasonably overstating estimates for proposed cost
items?
2. Does

any

alleged misrepresentation in obtaining a

government

procurement contract through set-aside program transform a contract into
a “government benefit” akin to a grant or an entitlement program
payment, for the purpose of loss and restitution calculation, as opposed to
a classic procurement fraud, which should be treated under the general
rule for loss calculation?

r

ii

PARTIES TO THE PROCEEDING
Petitioner Akbar Ghaneh Fard was a defendant in the district court and
an appellant in the Eleventh Circuit. The respondent is the United States of
America.

*

iii

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDING

11

TABLE OF AUTHORITIES

v.

PETITION FOR A WRIT OF CERTIORARI

1

OPINION BELOW

4

JURISDICTION

4

STATUTORY PROVISIONS INVOLVED

4

STATEMENT OF THE CASE

4

A. Factual Background

4

1. Purpose of SBIR/STTR Programs

5

2. Eligibility Requirements

6

3. SBIR/STTR Proposal Format Requirements

7

4. Guidelines for Preparing SBIR Budget Summary

8

5. Evaluation Criteria of Proposals

8

6. Selection Process

9

B. Indictment and Trial

11

C. Sentencing

13

C. Eleventh Circuit’s Decision

14

REASONS FOR GRANTING CERTIORARI

17

I. The Decision Below On Fraudulent Inducement Is Wrong And
Conflicts With This Court’s Precedents..............................................

17

iv

II. In Fraudulent Inducement In Procurement Cases, There Exists
A Mature Circuit Slip About How To Calculate Loss And Restitution

26

CONCLUSION

34

APPENDIX A:
Opinion of the United States Court of Appeals for the Eleventh
Circuit, United States of America v. Akbar Ghaneh Fard,
No. 18-13621 (February 4, 2020)
...... . Pet. App. 1
APPENDIX B:
Order of the United States Court of Appeals for the Eleventh
Circuit Denying Petition for Rehearing En Banc, United States
of America v. Akbar Ghaneh Fard, No. 18-13621-AA
(March 31, 2020).................................................................................. Pet. App. 9
APPENDIX C:
18U.S.C. §1343

Pet. App. 10

V

TABLE OF AUTHORITIES
Cases

Page(s)

Aldissi et ux. v. United States,
No. 19-5805 (S. Ct.) (2020)......

33

Berger v. United States,
295 U.S. 78 (1935).........

24

McNally v. United States,
483 U.S. 350 (1987)..........

25

Red Ball Interior Demolition Corp. v. Palmadessa,
173 F.3d 481 (2nd Cir. 1999)......................................

24

Rewis v. United States,
401 U.S. 808 (1971).....

26

Shalala v. Guernsey Memorial Hosp.,
514 U.S. 87 (1995).................................

3, 20, 21

Sperient Corp. v. United States,
113 Fed. Cl. 1, 7 (2013)...............

28

Thor Power Tool Co. v. Commissioner,
439 U. S. 522 (1979)...............................

21

United States v. Aldissi,
758 F. App’x 694 (llth Cir. 2018)

15

United States v. Ali,
619 F.3d 713, (7th Cir. 2010)

27

United States v. Bros. Constr. Co. of Ohio,
219 F.3d 300 (4th Cir.),
cert, denied, 531 U.S. 1037 (2000).............

33

vi

United States v. Harris,
821 F.3d 589 (5th Cir. 2016)

32

United States v. Jones,
475 F.3d 701 (5th Cir. 2007)

32

United States v. Leahy,
464 F.3d 773 (7th Cir. 2006),
cert, denied, 552 U.S. 811 (2007)

33

United States v. Martin,
796 F.3d 1101 (9th Cir. 2015)

33

United States v. Maxwell,
579 F.3d 1282 (llth Cir. 2009)

27, 29, 31, 33

United States v. Nagle,
803 F.3d 167 (3d Cir. 2015),
cert, denied, 136 S. Ct. 1238 (2016)

31

United States v. Near,
708 Fed. App’x 590 (llth Cir. 2017)

29

United States v. Sublett,
124 F.3d 693 (5th Cir. 1997)
United States v. Takhalov,
827 F.3d 1307 (llth Cir.),
as modified on reh’g, 838 F.3d 1168 (llth Cir. 2016)

.32

14, 17

United States v. White,
765 F.2d 1469 (llth Cir. 1985)

18

Yates v. United States,
135 S. Ct. 1074 (2015) .

26

vii

Statutes

Page(s)

15 U.S.C. § 638

4,6

15 U.S.C. § 662

6

18 U.S.C. § 1343

4, 11

31 U.S.C. § 6303

30

Sentencing Guidelines
U.S.S.G. § 2B1.1
Regulations

Page(s)
27, 31
Page(s)
18

48 C.F.R. § 16.202-1 (2019)
Other Authorities

Page(s)

National Academies of Sciences, Engineering, and Medicine,
STTR: An Assessment of the Small Business Technology
Transfer Program, httpsV/www.ncbi.nlm.nih.gov/books/NBK338714/
(visited Aug. 10, 2020)...................................................................................

16

SBIR/STTR On-line Tutorials, Course 1, Program Basics, Tutorial 1
What is the purpose of the SBIR & STTR Programs?,
available at the government website at
http s V/www. sbir. gov/tutorials/p rogram-b asics/tutorial-1,
(last visited August 17, 2020)....................................................................

6

SBIR/STTR On-line Tutorials, Course 1, Program Basics,
Tutorial 6, Contracts vs. Grants, available at
https 7/www. sbir. gov/tutorials/program -basics/tutorial- 6#
(last visited August 17, 2020)..................................................

28

SBIR/STTR On-line Tutorials, Course 8, Accounting and Finance, Tutorial 2,
available at https V/www.sbir.gov/tutorials/accounting-finance/tutorial-2
(last visited August 17, 2020)...................................................................................... 23
SBIR/STTR On-line Tutorials, Course 8, Accounting and Finance, Tutorial 4,
available at https7/www.sbir.gov/tutorials/accounting-finance/tutorial-4#
(last visited August 17, 2020)...................................................................................... 21

1

PETITION FOR A WRIT OF CERTIORARI
Petitioner, Akbar Ghaneh Fard, respectfully petitions for a writ of
certiorari to review the judgment of the United States Court of Appeals for the
Eleventh Circuit.
In ordinary competitive-based government procurement fraud cases, the
would-be fraudsters lie about their eligibility, qualifications, business credential,
or capabilities in their proposals. They overpromise what they can deliver so
that they can have a competitive edge over competitors. They also may bid a
lower price to get ahead of the competition. In these cases, after they secure a
contract, they don't perform as they often have no means or intention to provide
the services contracted.
But, this case is not ordinary by any mean. There are no allegations or
evidence of any misrepresentations made by the Petitioner Fard in his initial
proposals (either funded or not-funded) relating to his company, Advanced
Materials Technology, Inc (AMTI)’s eligibility, qualifications, key personnel,
facility, or commercialization capability that would have fraudulently influenced
the rankings of his proposals or provide AMTI with an unfair advantage over
other companies. In addition, Fard always intended to and did fully perform and
deliver his work according to the terms and conditions of contracts.

Fard

complied with all bidding instructions and contract terms and violated no law,
rule, or government procurement practice. Furthermore, contrary to a majority
of other contractors, Fard fulfilled the ultimate goal of the SBIR/STTR program

2

by successfully completing a Phase III, which is also known as the
“Commercialization Phase”. The government agencies never complained about
anything during periodic performance evaluation and oversight of the contracts.
The

question then becomes

more

mysterious:

if there were

no

misrepresentations in Fard’s proposals and the government agencies received
the ultimate work product or scientific research for which they had bargained,
then what was the possible wire fraud that the Government charged Fard?
The answer to that question involves proposed cost budgets. As part of
proposals, Fard submitted a summary budget with estimated cost items. The
government theory of prosecution was that Fard’s proposed cost budgets
contained false information about expenses, i.e., bloated cost items, and Fard did
not incur every expense he estimated in his proposals.

However, it is

indisputable that the proposed cost items were merely estimates. Fard, in his
proposed budgets, included reasonable estimates for possible cost items,
according to the instructions and recommendations of the government agencies
as well as the principle of conservatism. It is beyond dispute that Fard did not
attempt to be a lower bidder to increase his chance of getting awarded
government contracts.

All but one of the submissions made by Fard was for

firm fixed price contracts, which by definition, allocate “fixed” funds to a
proposal, once it is selected in a competitive process, and leave the manner of
expenditure to the contractor’s discretion. The Government simply criminalized
a prudent, normal, and legitimate way of doing business, and Eleventh Circuit

3

affirmed it. There is no way that could be the law. There was simply no scheme
to defraud. The Eleventh Circuit’s decision to affirm the wire fraud conviction
conflicts with this Court’s directive that “financial accounting has as its
foundation the principle of conservatism, with its corollary that ‘possible errors
in measurement [should] be in the direction of understatement rather than
overstatement of net income and net assets”.

Shalala v. Guernsey Memorial

Hosp., 514 U.S. 87, 100 (1995).
Moreover, the district court and 11th Circuit Court erred in using the
government benefits rule in calculating loss and restitution in Fard’s SBIR/STTR
contracts, which were clearly procurement contracts. Nevertheless, there is a 33 slip between the circuit courts of appeal over how to calculate loss and
restitution when a defendant uses misrepresentations in obtaining funding
through a set-aside program, yet delivers the services under contract.

Three

circuits calculate loss and restitution using the government benefits rule,
regardless of the fair market value of services delivered. In comparison, three
other circuits deduct from the loss and restitution calculation an offset for the
fair market value of any services rendered by the Defendant.
Finally, as a methodological matter, the court below defied this Court’s
instruction to use principles of lenity, fair notice, and avoidance to prevent
criminalizing routine business practice. To correct the far-reaching errors and
settle the multiple conflicts generated by the Eleventh Circuit’s decision below,
this Court should grant review.

4

OPINION BELOW
A copy of the unpublished decision of the United States Court of Appeals
for the Eleventh Circuit is contained in the Appendix (Pet. App. at 1-8) along
with a copy of the Eleventh Circuit’s order denying the petition for rehearing en
bandPet. App. at 9).
JURISDICTION
The Eleventh Circuit issued its opinion on February 4, 2020, Pet. App. at
1-8

and denied Fard’s timely petition for rehearing en banc on March 31, 2020.

Pet. App. at 9. On March 19, 2020, this Court issued an order, extending the
deadline to 150 days to file writ of certiorari. Therefore, the deadline to file this
petition is August 28, 2020.

This Court has jurisdiction under 28 U.S.C. §

1254(1).
STATUTORY PROVISIONS INVOLVED
The pertinent provision (18 U.S.C. §1343) is set forth at Appendix C to
this petition.
STATEMENT OF THE CASE
A. Factual Background
Petitioner Fard’s indictment and conviction stem from his involvement in
government research programs - Small Business Innovative Research Program
(SBIR) and the Small Business Transfer Technology Program (STTR), See 15
U.S.C. § 638, created by the United States Congress in 1982 and 1992,

5

respectively. These programs require eligible governmental agencies to set aside
a percentage of their budgets to help domestic small businesses engage in
research and development (R&D) with strong potential for technological
commercialization. Fard’s Brief at 3.
1. Purpose of SBIR/STTR Programs
The original charter of the SBIR program was to address four goals:

•

Stimulate technological innovation

•

Use small business to meet Federal R/R&D needs

•

Foster and encourage participation by the socially and economically
disadvantaged small businesses and those that are 51 percent owned and
controlled by women, in technological innovation

•

Increase private-sector commercialization of innovations derived from
Federal R/R&D,

thereby increasing competition,

productivity,

and

economic growth
There are three phases in SBIR and STTR program:

•

Phase I is the concept phase. It lasts six to twelve months and supports
exploration of the technical merit or feasibility of an idea or technology.

•

Phase II awards may last for up to two years and expand upon the Phase I
results. During this time, the R&D work is performed.

6

•

Phase III is the period during which Phase II innovation moves from the
laboratory into the marketplace. No SBIR funds support this phase. The
small business must find funding in the private sector or secure it from
other

non-SBIR

Federal Agency

funds

that can fund continued

development.
(SBIR/STTR On-line Tutorials, Course 1 Program Basics, Tutorial 1, What is the
purpose of the SBIR & STTR Programs?, available at the government website at
httpsV/www.sbir.gov/tutorials/program-basics/tutoriaM, last visited August 17,
2020)
Fard successfully completed a Phase III (commercialization phase) project,
and, therefore, was able to fulfil the purpose of SBIR/STTR programs.
2. Eligibility Requirements
Per 15 U.S.C. § 638 and § 662(5), to be eligible for SBIR/STTR awards,
awardees must qualify as small business concerns (SBC).

An SBC is one that,

at the time of award of Phase I and Phase II funding agreements, meets the
following criteria:
(l) is organized for profit, with a place of business located in the United States;
(2) is in the legal form of an individual proprietorship, partnership, limited
liability company, corporation, joint venture, association, trust or cooperative!
(3) is at least 51 percent owned and controlled by one or more individuals who
are citizens of, or permanent resident aliens in, the United States! and

7

(4) has, including its affiliates, not more than 500 employees. Gov’t Ex. 6.1 at
131.
In addition, the primary employment of the principal investigator (PI)
must be with the small business concern, and the research must be performed
domestically. Id. at 9.
Advanced

Materials

Technology,

Inc

(AMTI)

met

all

the

above

requirements and, therefore, Fard was undoubtedly an intended recipient of all
his SBIR/STTR contracts.
3. SBIR/STTR Proposal Format Requirements
Each proposal submitted contained the following items:
(l) Certification Cover Sheet (Form A), electronically endorsed;
(2) Proposal Summary (Form B),
(3) Budget Summary (Form C)
(4) Cooperative R/R&D Agreement between the SBC and RI (research
institution) (STTR only),
(5) Technical Content: 11 parts including work plan (statement of work),
(6) Briefing Chart. Gov’t Ex. 6.1 at 16.

1 Gov't Ex. refers to the Government's Exhibit.

8

4. Guidelines for Preparing SBIR Budget Summary
All budget items in the budget summary were merely estimates. In fact,
in the guidelines for preparing SBIR budget summary, the word estimate or
some variant thereof is repeated 12 times. Gov’t Ex. 6.1 at 59-60.
5. Evaluation Criteria of Proposals
The

relevant

government agencies publish a catalogue

(Program

Solicitations) of research and development program for which they are seeking
proposals to be funded by/through SBIR/STTR programs.

Various entities

submit thousands of proposals. All Phase I and II proposals are evaluated and
judged on a competitive basis.

Proposals are initially screened to determine

responsiveness. Then, the agencies would do a thorough amount of due diligence
before awarding contracts.

Proposals passing the initial screening are then

technically evaluated by the agencies personnel to determine the most promising
technical and scientific approaches. Various government agencies utilize similar
evaluation criteria. Gov’t Ex. 6.1 at 29-30.
Each proposal is judged and scored on its own merits using the factors
described below:
•

Factor V Scientific/Technical Merit and Feasibility

•

Factor 2- Experience, Qualifications, and Facilities

•

Factor 3: Effectiveness of the Proposed Work Plan

•

Factor 4. Commercial Potential and Feasibility

9

Commercialization encompasses the infusion of innovative technology into
products

and

services

for

NASA

(National

Aeronautics

and

Space

Administration) mission programs, other government agencies and non­
government markets. Id.
6. Selection Process
Factors 1, 2, and 3 are scored numerically with Factor 1 worth 50 percent
and Factors 2 and 3 each worth 25 percent. The sum of the scores for Factors 1,
2, and 3 will comprise the Technical Merit score. For NASA’s Phase II, Proposals
receiving numerical scores of 85 percent or higher are evaluated and rated for
their commercial potential by applying adjectival ratings (Excellent, Very Good,
Average, Below Average, and Poor). Gov’t Ex. 6.1 at 32.
Recommendations for award are forwarded to the Program Management
Office for analysis and presented to the Source Selection Official and Mission
Directorate

Representatives.

Final

selection

decisions

consider

the

recommendations, overall NASA priorities, program balance and available
funding, as well as any other evaluations or assessments. The Source Selection
Official has the final authority for choosing the specific proposals for contract
negotiation.

Each proposal selected for negotiation is evaluated for cost/price

reasonableness, past performance and awards are made to those contractors
determined to be responsible. Id.

10

It is very important to notice that the exact budget was not a factor in the
government’s evaluation process or eligibility criteria. The goal of submitting a
budget summary (Form C) is to enable NASA to determine whether the proposed
budget is fair and reasonable.

In fact, Government Exhibit 6.1 clearly states

that NASA plans to select for award those proposals offering the best value to
the government and the SBIR/STTR program. “NASA will give primary
consideration to the scientific and technical merit and feasibility of the proposal
and its benefit to NASA”. Id. at 29.
Moreover, Fard’s alleged misrepresentations in the proposed budgets
could not result in inducement.

It is the usual custom and practice in this

industry to request maximum funding from the Government. Had Fard wanted
to “induce” the Government to award him a contract, it would have been more
beneficial for him to have requested a lesser amount of funding, as doing so
would have increased the chances of being awarded the contract. See
Government’s Exhibit 6.1, at 32 (Where technical evaluations are essentially
equal in potential, cost to the Government and offeror’s past performance may be
considered in determining successful offerors.)
Fard through his corporation submitted about 31 proposals.

These

proposals were submitted to the National Aeronautics and Space Administration
(NASA), the Missile Defense Agency (MDA), and the United States Navy (USN)
among some other agencies. Fard’s company was awarded 11 contacts (seven

11

Phase I, three Phase II, and one Phase III) from 2003 until 2013. See PSR2 at 12.
It is without dispute that he delivered the property and/or services to NASA,
MDA, and USN. The property and/or service were a direct benefit to the United
Sates government.
B. Indictment and Trial
On March 22, 2017, Fard was indicted on six counts of wire fraud in
violation of 18 U.S.C. § 1343. Doc. I.3
The evidence showed that on June 30, 2003, Fard incorporated Advanced
Materials Technology, Inc. (AMTI) in Florida. Fard was the president and owner
of AMTI, and the company submitted contract proposals and other documents to
NASA, MDA, and USN among some other agencies to procure funding for
research projects. Fard’s Brief at 3-4.
Fard had, in total, eleven contracts with NASA, MDA and USN. All but
one of the contracts was for firm-fixed price contracts. In a fixed price contract,
as part of the proposal, the proponent estimates what costs will be.

If those

estimates are inaccurate, the proponent bears the risk of cost overruns. The
proponent of the project is obliged to deliver the promised research product,
regardless of the actual costs incurred. Fard had one cost plus fee project with
USN. In a cost-plus fee project, the Government pays all costs associated with
the research project and guarantees the recipient a certain profit. Id. at 4.

2 "PSR" refers to the presentence investigation report.
3 "Doc." refers to the numbered entry onto the district court's docket in this case.

12

It was undisputed that Fard always delivered what he promised, as
evinced by the fact that he was repeatedly awarded contracts. Id.
The Government’s theory of prosecution was that Fard defrauded the
Government because his proposed estimates were false and he did not incur
every expense he projected in his proposals. Id. at 5.
The Government presented 18 witnesses in its case-in-chief and no
rebuttal witnesses.

The Government’s key witness was special agent Phil

Mazzella, who was one of the case agents and was employed by the NASA Office
of Inspector General. Doc. 134 at 45.
Mazzella testified, without any support, to the legal conclusion that AMTI
was bound by the proposal submitted.

Id. at 62. He generally testified that

Fard’s spending was materially inconsistent with what was agreed upon in the
contracts. Doc. 135 at 42. Mazzella testified that AMTI had made approximately
sixteen different proposals to NASA, MDA and USN, each time proposing a
research associate, Id. at 46, and that Mazzella could not confirm that AMTI
ever utilized a research associate. Id. at 45.
Mazzella also testified that every proposal submitted by AMTI under the
SBIR/STTR program had a seven percent profit cap proposed by Fard. Mazzella
also testified that of the 2.1 million dollars AMTI collected from those programs
it kept in some fashion approximately 1.5 million dollars, which was
approximately 70%. Id. at 46. This testimony was misleading and reckless.

13

First, apart from any profit AMTI would get from the SBIR/STTR project, Fard
was always the principal investigator (PI) who drew a salary. In every proposal,
Fard was personally going to get the lion’s share of the funds distributed because
as the principal investigator and the sole owner of AMTI, he stood to benefit
from the profits the company received as well as his salary as the principal
investigator. Second, there was no allegation that Fard did not fully deliver the
promised research product to any government entity on any of the projects for
which his proposal was accepted from many competitive bidders.
Romaguera, Doc. 136 at 133, and Binder, Doc. 136 at 207, Government’s
witnesses, reiterated the same statements regarding the definitization of
estimated costs in a proposal once the contract was finalized and the cap on
profits. On cross-examination, Binder could not identify any references to either
definitization or profit caps in the final contract between Fard and NASA. Doc.
136 at 216-219.
Fard made his motion for a judgment of acquittal, which was denied
without any explanation. Doc. 138 at 23. After five days of trial, on Feb. 9, 2018,
a jury returned guilty verdicts against Fard on all six counts. Id. at 139-140.
C. Sentencing
At sentencing, Fard objected to the loss amount, forfeiture and restitution
calculations. Doc. 153. His position was that given that the relevant agencies
received exactly what they bargained for, the loss amount should be zero, even if

14

there had been some fraud in the inducement to enter the contract. Id. at 4. For
the same reasons, Fard objected to the forfeiture award and the restitution
imposed.

The district court overruled his objections and varied from his

guideline sentence to impose 36 months’ imprisonment. Doc. 163. The court also
ordered Fard to pay restitution totalling $1,472,082, and entered an order of
forfeiture against him in the same amount. Doc. 184 at 48>‘ Doc. 163.
D. The Eleventh Circuit’s Decision
On appeal, Fard raised two issues^ (l) whether the evidence was sufficient
to convict Fard of the charges in his indictment, and (2) whether the district
court erred in calculating the loss amount in determining Fard applicable
guideline sentence, as well as the forfeiture award and the restitution order.
Fard’s Brief at 2.
Fard argued that there were no misrepresentations in his proposals as the
proposed estimates to the relevant agencies were merely estimates. Id. at 44.
Alternatively, Fard argued that even if he made knowing misrepresentations in
his contract proposals, which was belied by the facts adduced at trial, at most he
committed fraud in the inducement, as the Government received exactly what it
bargained for. And that is not wire fraud according to well-established circuit
precedent. United States v. Takhalov, 827 F.3d 1307, 1310 (llth Cir. 2016).
Finally, Fard argued that the United States experienced no loss as a result
of that fraud.

Fard delivered everything required of him under the SBIR or

15

STTR contracts that were the subject of this case. This was self-evident. He was
repeatedly given more contracts, and he would only have been continuously
awarded contracts if he had satisfactorily completed the requirements of
previously awarded contracts. Id. at 45.
On February 4, 2020, the panel of 11th Circuit Court judges issued a per
curiam decision affirming the decision of the district court without holding any
oral argument. Pet. App. at 1-8.
Accepting the Government baseless and bizarre theory that the estimates
were binding, the panel wrongfully concluded that “From the combination of
Fard’s obligations and actual spending, the Government presented sufficient
evidence to show that Fard had made material misrepresentations to the
agencies.” Pet. App. at 4.
Also, the panel strangely asserted that Fard’s alleged misrepresentation
undermined the purpose of the programs to stimulate innovation and economic
growth, Id., while the jury heard zero evidence in this regard.
In reality, see supra Statement A.l , the purpose of SBIR/STTR programs
is not only to stimulate innovation and economic growth but also is the
commercialization.

Indeed, commercialization is the ultimate goal of the

programs. Doc. 135 at 92. See also United States v. Aldissi, 758 F. App’x 694,
697 (llth Cir. 2018) (“In fact, commercialization is the main goal”). Fard
achieved the commercialization goal by getting and successfully completing a

16

Phase III project. Doc 135 at 139 and PSR at 12. Indeed, Phase III contracts are
optional endeavors for commercialization, and most Phase II contracts do not
turn into Phase III contracts. PSR at 6. Also see National Academies of Sciences,
Engineering, and Medicine, STTR: An Assessment of the Small Business
Technology Transfer Program, https7/www.ncbi.nlm.nih.gov/books/NBK338714/
(“the conversion rate to Phase III was 4 percent”) (last visited August 17, 2020).
There

exists

absolutely

nothing

to

support

that

the

alleged

misrepresentations in the proposed estimated cost items would undermine the
purpose of the programs. There is a good reason for that. It simply does not
make any sense. The innovation and commercialization come from the work and
innovative ideas of Fard as principal investigator and not from unnamed
research associate with unknown qualifications who does not even need to have a
bachelor’s degree. Doc. 135 at 163. Therefore, hiring a research associate and/or
purchasing chemicals/supplies cannot undermine the purpose of the SBIR/STTR
programs. In other words, the research performed by highly qualified principal
investigator (Fard) is more valuable or more likely to yield promising technology
than that performed by unnamed research associate with unknown education
and work background.
The Government got full benefits of its bargain^ satisfactory research work
and getting into commercialization phase of the technology developed under the
SBIR program. Fard did not undermine the purpose of the program; rather he
fulfilled the purpose of the program. There was simply no discrepancy between

17

benefits reasonably anticipated ... and the actual benefits which [Fard]
delivered. Takhalov, 827 F.3d at 1314.
REASONS FOR GRANTING CERTIORARI
I.

The Decision Below On Fraudulent Inducement Is Wrong And
Conflicts With This Court’s Precedents

The wire fraud charges in this case were based on fraudulent inducement
in the government contracts.

“His [Fard’s] SBIR/STTR award proposals

budgeted thousands of dollars for personnel, laboratory materials, and, on one
occasion, expensive equipment, when he did not incur these expenses. And, if
NASA and DoD had known that Fard’s award proposals contained false
expenses, they would not have awarded AMTI research contracts”.

See

Government answer brief at 21.
However, the alleged lies in the proposed budgets were estimates. The
Government was never able to put forth any evidence that the estimates in
Fard’s proposals to the relevant agencies were anything more than estimates.
Except for the one US Navy contract, each of the contracts at issue in the case
were firm-fixed-price contracts. As the Eleventh Circuit Court has noted:
The [relevant] contracts were fixed price contracts, meaning that
the government and lowest acceptable bidder agree that the low
bidder will perform the contracted work for a stated price. Under
such contracts, if the final total costs of the agreed upon services
exceed the contracted price, the contractor takes the loss,
conversely, he can profit if the costs are lower than the contract
price. Because of the fixed price nature of the contract the
contractor does not have to demonstrate his actual costs to the

18

government, and the government consequently imposes no
recordkeeping requirements under the contract.
United States v. White, 765 F.2d 1469, 1472 (llth Cir. 1985) (emphasis
supplied).
This contract type places upon the contractor maximum risk and full
responsibility for all costs and resulting profit or loss. It provides maximum
incentive for the contractor to control costs and perform effectively and imposes a
minimum administrative burden on the contracting parties.

48 C.F.R. § 16.202-

1 (2019).
Clearly, in a fixed price contract, it behooves contractor to account for any
contingencies, since he is responsible for delivering the promised item no matter
the costs. It is impossible to know what would be exact actual cost in research
and development projects. Even Government’s witness McQuade testified about
the difficulty of estimating a budget: R and D, it’s very difficult to sometimes
estimate how much it’s going to cost because you have significant technical
issues. Doc. 136 at 17.
Any overstatements of estimated proposed costs contained in all Fard’s
proposed budgets were compliant with the usual and customary industry
standards. At trial, Government’s witness Sunol admitted that if he were the
one performing the work, he would implement a “20, 30 percent contingency” to
his proposed estimates in budgets. Doc. 136 at 96-97. By contrast, in all Fard’s
four cost proposals, the proposed amount for research associate averaged out to

19

5.7% of the overall contract price.

The average total proposed costs for

materials/glassware/small tool/miscellaneous and leasing equipment were 3.3%
and 0.6%, respectively.

Thus, the proposed budget for all items in four

proposals, that were the subject of the indictment, was just 9.6% of the total
proposed costs.

It is indisputable that Fard’s proposed cost items were

reasonable and well below what even the government witness suggested. See
the table below for details.
Proposed Cost Item
Gov’t

Count

Total

Exhibit

Number Proposed

Research

Materials

Leasing

Associate

Glassware

Equipment

Cost
Small Tool
Miscellaneous
Ex 3.2B

1 and 5

$599,997

$43,200

$36,480

Ex 10.8

2

$749,999

$29,880

$2,342

Ex 4.2B

3 and 6

$599,999

$38,000

$27,374

Ex 6.2A

4

$99,999

$6,300

$787

$2,049,994

$117,380

$66,983

$11,472

5.7%

3.3%

0.6%

Total

$11,472

% of Total
Proposed
Cost

20

There was no evidence that the estimates were fraudulent at the time of
submitting proposals.

Only after the fact, were the estimates called into

question. There is an excellent example of the folly of the Government’s theory
of fraud in Fard’s case. The Government’s answer brief raises the fact that as
part of his estimates, Fard had budgeted for the lease of a pycnometer, an
expensive piece of laboratory equipment. Id. at 25. The Government, in its
answer brief, asserts that this equipment was provided by the subcontractor. Id.
While technically true, it is also true that when Fard was preparing his proposal
that included the pycnometer, his subcontractor did not have a pycnometer, and
he had no way of knowing that his subcontractor would acquire one in the future
when it was needed for the project. Doc. 136 at 88. That anyone could ever
provide estimates with such uncanny accuracy about the expenses of research
and development projects which are so sufficiently complex and sophisticated
that they are the subject of NASA and USN proposals is complete folly.
Nevertheless, that is precisely what Fard’s convictions hang on.
The bottom line is that Fard attempted to include all possible cost items in
his proposed budgets in a reasonable fashion.

In other words, Fard simply

practiced the principle of conservatism, which is in line with this Court’s position
in Shalala v. Guernsey Memorial Hosp., 514 U.S. 87, 100 (1995): “Financial
accounting is not a science. It addresses many questions as to which the answers
are uncertain and is a “process [that] involves continuous judgments and
estimates.” Id., ch. 5, at 7-8. In guiding these judgments and estimates,

21

“financial accounting has as its foundation the principle of conservatism, with its
corollary that ‘possible errors in measurement [should] be in the direction of
understatement rather than overstatement of net income and net assets.’” Thor
Power Tool Co. v. Commissioner, 439 U. S. 522, 542 (1979) (citation omitted).”
The government SBIR web site in a tutorial on Accounting and Finance
provides the following instruction on how to prepare the budget for SBIR
proposals:
FAR 31.205-7 addresses the concept of a “contingency” to cover
unexpected costs. It is allowed, but with limitations. It generally
is not allowed in situations in which you have a cost
reimbursement award (typical of a Phase II award), because such
contracts/grants allow you to bill the actual cost of doing the work,
including unexpected ones. And in Phase I, even though most
awards are fixed price, we would say contingency is almost always
an ineligible cost and therefore should not be included in your cost
proposal. Therefore, make sure you have not underestimated the
costs of doing the technically risky Phase I R&D.
SBIR/STTR On-line Tutorials, Course 8, Accounting and Finance, Tutorial 4,
available at https-//www.sbir.gov/tutorials/accounting-finance/tutorial-4#
(last visited August 17, 2020)
Clearly, the government SBIR web site warns SBIR applicants against
underestimating the costs of technically risky R&D work, which is in line with
this Court directive in Shalala.
The Eleventh Circuit decision to affirm wire fraud conviction squarely
conflicts with this Court’s directive that any errors in cost estimates should be in
the direction of overstating rather than understating the estimated costs,

22

following the principle of conservatism in financial accounting. Therefore, this
Court’s intervention is plainly warranted.
Having no evidence that Fard’s estimated budgets were fraudulent at the
time of submissions, the Government claimed that the estimated cost items in
proposed budgets became “binding” once the parties signed the contracts
The notion that those estimates were somehow definitized and binding
once the contract was consummated is belied by the lack of any record evidence
and common sense. Taken to its logical conclusion, the deviation of one penny
from the estimate could form the basis for a wire fraud prosecution.
The contracts at issue here were of a written nature and there were no
oral modifications alleged. Not one line, clause or statement from the contracts
(See Gov’t Exs 3.3A, 4.3A, 6.3A, 7.3A, 8.3A, 10.10) is quoted by any witness at
trial or in the Government’s answer brief to support the notion that the proposed
costs in Fard’s submission were binding to the penny. That is because there is
no line, clause or statement in any of those contracts supporting that notion.
And that is for a perfect reason^ It simply makes no sense and serves no
purposes.

The pycnometer is an excellent example of how nonsensical this

theory was. As mentioned before, Fard proposed to lease the pycnometer in one
of his proposals. However, as this equipment became available to Fard during
the performance period of the contract, he did not spend the money on that
because it was unnecessary. However, according to the government theory, Fard

23

was obligated to spend the money on the pycnometer regardless of whether or
not it was needed!
The government theory that the estimated cost items including proposed
profit are biding in fixed price contracts is clearly false as the Government SBIR
web site explains:
“A firm fixed price or FFP award requires a recipient to perform
the work necessary to produce the deliverables specified in the
contract/grant for an established dollar amount. FFP awards
therefore incentivize the contractor to control costs and impose
minimum administrative burden on the contracting parties”
SBIR/STTR On-line Tutorials, Course 8, Accounting and Finance,
Tutorial 2, available at httpsV/www.sbir.gov/tutorials/accountingfinance/tutorial'2 (last visited August 17, 2020)
In fixed price contracts Fard entered into with the relevant agencies, he
delivered exactly what the Government bargained for. As such, the terms of the
contracts (including costs and profits) once negotiated and accepted by the
parties lose their “individual” line-item relevance. How Fard spent the funds,
which in essence was his salary, was his prerogative.

Fard’s proposal to deliver

a certain product or service, once accepted, established the value to both parties.
Moreover, all of Fard’s contracts (Gov’t Exs. 3.3A, 4.3A, 6.3A, 7.3A, 8.3A)
contained a “Key Personnel and Facilities” clause (1852.23571) which expressly
stated that the research associate was not among key personnel and, as such,
Fard was allowed to remove any research associate without obtaining permission

24

from the Government. It is clear from the language set forth in that clause alone
that the proposed estimated budget for research associates did not impact the
government decision making process to award the contracts. This is very explicit
language clearly saying that despite providing estimated costs for a research
associate in its proposed budget, Fard could ultimately decide not to use the
research associate

or remove the research associate without obtaining

government approval. The Eleven Circuit’s assertion that estimates were
binding and material misrepresentation cannot be correct.
The government theory was not real, and did not exist. It was totally
irrational, but that was precisely what the Government needed to win by
allowing its witnesses to present false testimony. A prosecutor’s duty is not that
the government “shall win a case, but that justice shall be done.”

Berger v.

United States, 295 U.S. 78, 88 (1935). While a prosecutor “may strike hard
blows, he is not at liberty to strike foul ones,” Id.
The common law prohibits courts from “imposting] obligations on the
parties that are not mandated by the unambiguous terms of the agreement
itself.” Red Ball Interior Demolition Corp. v. Palmadessa, 173 F.3d 481, 484 (2nd
Cir. 1999) (Sotomayor, J.).
There were no misrepresentations in Fard’s proposals and no scheme to
defraud in this case.

25

The implications of this case are shocking—and dangerous.

Nothing is

easier than accusing a small-business government contractor of making
misrepresentations in his initial cost estimates. Such an allegation is enough,
under the decision below, not just to drop him as a contractor, terminate his
contracts, or sue him for breach of contract, but to indict him for fraud.
But the problem is actually far worse. All that is needed to obtain an
indictment is an allegation that the estimated costs are false because they are
different from actual costs.
In an ideal world, the proposed estimated costs would be the same as the
actual costs. But our world is decidedly not ideal, and in the world of contracts,
particularly research and development contracts, the ideal world does not exist.
Small business contractors thus always have their interests in mind to ensure
that they are not going to lose money.

We all understand as much—except,

apparently, the Eleventh Circuit. Trying to criminalize overstating estimated
through federal criminal law, that Court has now authorized prosecutors to
pursue, and empowered juries to imprison, any government contractor who
practices conservatism by putting all possible cost items in his proposed budget.
This Court cannot stand by.
Moreover, this Court has interpreted the fraud statutes in light of the
“rule of lenity” and in such a way that provides citizens “fair notice of what sort
of conduct may give rise to punishment.” McNally v. United States, 483 U.S. 350
(1987). The decision below violates these principles, criminalizing a common

26

business practice while denying fair notice of the legal principles, applied in the
prosecutions, and that alone directly contradicts this Court’s cases.
The notion that federal courts should expand the wire fraud statute to
capture all conduct they regard improper is contrary to multiple root principles
of federal law.

The Eleventh Circuit Court’s holding in this case is clearly

incompatible with the rule of lenity, which instructs that “ambiguity concerning
the ambit of criminal statutes should be resolved in favor of lenity.” Rewis v.
United States, 401 U.S. 808, 812 (1971).
It is critical for this Court to correct the Eleventh Circuit Court’s
profoundly flawed interpretation of the elements of wire fraud statute.

The

federal Government’s keenness to treat a routine business practice as a federal
criminal matter illustrates the “over-criminalization and excessive punishment”
that have plagued the criminal justice system. Yates v. United States, 135 S. Ct.
1074, 1100-01 (2015) (Kagan, J., dissenting). This Court’s intervention is plainly
needed.
II.

In Fraudulent Inducement In Procurement Cases, There Exists
A Mature Circuit Slip About How To Calculate Loss And
Restitution

This Court should consider the 3-3 circuit split over the calculation of loss
and restitution in the fraudulent inducement in procurement cases. The holding

27

below misconstrued the loss calculation and restitution guidelines and had
significant implications for Fard’s forfeiture and restitution orders.
The question is whether to apply the general rule for loss calculation that
permits offsets, U.S.S.G. §2B1.1, cmt. (n.3(E)(0) (loss “shall be reduced by money
and property returned, as well as the fair market value of services rendered ... to
the victim before the offense was detected”), or the special government benefits
rule that does not allow offsets, U.S.S.G. § 2B1.1, cmt. (n.3(F)(ii)) (loss is not “less
than the value of the benefits obtained by unintended recipients or diverted to
unintended uses”).
It is without dispute that loss amount calculation and the forfeiture and
restitution orders are germane to each other. See United States v. AH, 619 F.3d
713, 720 (7th Cir. 2010) (where the loss calculation, forfeiture order, and
restitution award are the same, the analysis of the district court’s holdings
should be similar).
The district court decided and the 11th Circuit panel affirmed that
Maxwell governed the issues discussed in sentencing and SBIR/STTR program
contracts awarded to Fard’s corporation were akin to “government benefits” type
contract. See United States v. Maxwell, 579 F. 3d 1282 (llth Cir. 2009). As
such, the district court relied upon United States Sentencing Guideline
(U.S.S.G.) § 2B1.1, cmt. (n.3(F)(ii)) to determine the loss amount. Based upon
that determination, the district court entered its forfeiture and restitution
orders.

28

Without a shadow of doubt, SBIR/STTR contracts
procurement contracts (fee-for-service business deal).

in this case are

See Sperient Corp. v.

United States, 113 Fed. Cl. 1, 7 (2013). In fact, the price negotiation memo of
each SBIR/STTR contract that Fard entered into states so on the very first page:
“This procurement is for Research and Development with separate research
areas under which Small Business Concerns (SBCs) are invited to submit
proposals^ the Small Business Innovation Research (SBIR) program and the
Small Business Technology Transfer (STTR) program”. Gov’t Ex. 6.3B.
Moreover, the government SBIR web page unequivocally points out that
NASA and DOD SBIR contracts are procurement contracts-an agreement
between a buyer and seller to provide goods or services in return for
compensation.

It provides distinctions between procurement contracts, often

simply called contracts, and grants, and cooperative agreements. It further
states: “By contrast contracts are more demanding. A contracting agency is
looking to procure a good or service that will be of direct benefit to the
Government.

See

Tutorial

6,

SBIR/STTR On-line Tutorials, Course 1 Program Basics,
Contracts

vs.

Grants,

available

at

https://www.sbir.gov/tutorials/program-basics/tutorial-6# (last visited August 17
2020).

The lower court decision, Pet. App. at 1-8, to affirm that SBIR/STTR
contracts constitute government benefits is simply inconceivable.

29

In affirming the district court, the panel relied almost exclusively on
Maxwell. The Maxwell case is utterly irrelevant to Fard’s case. The defendant
in Maxwell allegedly participated in a fraudulent scheme to obtain construction
contracts set aside for socially and economically disadvantaged companies at the
Miami International Airport. The contracts involved in Maxwell were of a type
of Community Small Business Enterprises (CSBE) and Disadvantaged Business
Enterprises (DBE) programs, for which the Defendant’s company did not qualify
as either of those enterprises. In other words, the Defendant in Maxwell was an
unintended recipient of contracts.
Contrary to Maxwell, Fard and his company fully qualified for the
contracts that he applied for and received and, therefore, were intended
recipients of the contracts.

See supra Statement A.2.

Hence, Maxwell is

inapplicable here.
In United States v. Near, 708 Fed. Appx. 590 (llth Cir. 2017), a strikingly
similar case to this case, the Eleventh Circuit Court reconciled its holding with
that in Maxwell, by distinguishing that case as follows:
The government is correct that Maxwell declined to offset losses
under the Government Benefits Rule, but Maxwell involved funds
received by an unintended recipient. Maxwell, at 1282. It makes
sense that such losses could not be offset by the value of services
provided because those services should never have been provided
by that recipient in the first place.
The SBIR/STTR programs at issue in this case are not DBE programs. As
per the Federal Grant and Co-operative Agreement Act, government agencies

30

(NASA, MDA, USN) must use procurement contracts when the principal purpose
of the instrument is to acquire (by purchase, lease, or barter) property or services
for the direct benefit or use of the United States government. See 31 U.S.C. §
6303 (1).
Interestingly, the 11th Circuit Court of Appeals affirmed that the district
court finding whether Fard was an unintended recipient was not explicit. Pet.
App. at 6.

Also, the panel mentioned that the Government distinguished

awarding funds to AMTI (Fard’s company), not Fard. This argument is specious
because Fard’s business was Fard. Fard was the sole owner and shareholder of
Advanced Materials Technology (AMTI), and hence the alter ago of his company.
Furthermore, the 11th Circuit Court erred in concluding that Fard used
the awards for unintended purposes. Pet. App. at 6.
The evidence presented at trial contradicts the Government’s allegation
that Fard fraudulently diverted 70% of the government funds for his personal
use. First, Fard made it clear in all of his proposals that he would be providing
and charging for services provided by him in his dual capacity as the principal
investigator and president of AMTI. All of AMTI’s Phase 1 proposals to NASA as
well as the Phase II invoices submitted for the Navy project represented that
approximately 70% of the funds would be for Fard’s direct labor, overhead, and
profit.

Moreover, the trial testimony of Government witness Romanguera

demonstrated that once the Government approved and accepted the work
performed under these contracts, the funds received by Fard as payment could

31

be spent at his discretion. Doc. 136 at 149-150. Based on this evidence, there
can be no finding that the funds received by Fard were diverted to unintended
uses so as to warrant the application of the Government Benefits Rule.
Furthermore, Fard certified in all his proposals that the principal
investigator was primarily employed by AMTI.

This simply meant that Fard

was required to pay for himself as principal investigator.

As the principal

investigator of the contracts approved by the relevant agencies, his salary (both
direct and overhead, which was a major part of G&A) was the most significant
cost item budgeted in the proposals.
In summary, the Eleventh Circuit Court of Appeals erred in affirming that
(l) Maxwell is applicable, (2) SBIR/STTR contracts in this case are government
benefits programs, and (3) Fard diverted 70% of funding to unintended uses.
Regardless of erroneous decisions of the 11th Circuit Court of Appeals in
this case, in fraudulent inducement in procurement contract cases, a 3-3 circuit
split has erupted over the question of whether the loss should be reduced by the
fair market value of services rendered.
The Third, Fifth and Ninth Circuits decided that loss in contract fraud
cases must be reduced by the fair market value of services rendered by the
Defendant:
•

United States v. Nagle, 803 F.3d 167, 181-183 (3rd Cir. 2015) (holding that
the amount of loss under § 2B1.1 should be calculated by taking the face

32

value of the contracts and subtracting the fair market value of the services
rendered under those contracts. “This includes. . .the fair market value of
the materials supplied, the fair market cost of the labor necessary to
assemble the materials, and the fair market value of transporting and
storing the materials.”)
•

United States v. Harris, 821 F.3d 589, 605 (5th Cir. 2016) (District court's
error in treating entire face value of contracts as loss, rather than
determining loss as total contract price less the fair market value of
services rendered, was procedural error in sentencing defendant following
convictions for wire fraud in connection with a scheme to obtain
government procurement contracts set aside by the SBA for minorityowned small businesses); United States, v. Sublett, 124 F.3d 693, 694-695
(5th Cir. 1997) (Court vacated the sentence of a mail fraud defendant who
had fraudulently obtained counseling services contracts from the IRS by
misrepresenting his academic and professional credentials.

The Court

held that because the Defendant had provided properly credentialed
counselors to perform portions of the contracted-for services, the district
court erred in treating the entire value of the contracts as loss and
instead, directed it to deduct the value of the legitimate services actually
provided.); accord United States v. Jones, 475 F.3d 701, 706 (5th Cir.
2007) (“In the context of a contract, the court must credit the defendant for
the value of the performed services.”).

33

•

United States, v. Martin, 796 F.3d 1101, 1108, 1110-11 (5th Cir. 2015) (In
calculating sentencing loss attributable to Defendant convicted of
defrauding the DBE and SBA programs, when Defendant was not
qualified to participate in such programs, the sentencing court could not
use the entire amount of government contracts awarded to Defendant,
where Defendant successfully performed under the contracts and provided
valuable construction services to the Government).
On the other, the Fourth, Seventh, and Eleventh Circuits do not allow

offsets for services rendered. See United States v. Bros. Constr. Co. of Ohio, 219
F.3d 300, 317-18 (4th Cir. 2000); United States v. Leahy, 464 F.3d 773, 789-90
(7th Cir. 2006); United States v. Maxwell, 579 F.3d 1282, 1305*07 (llth Cir.
2009).
Although this case presents the same “government benefits” issue that
was recently presented in Aldissi et ux. v. United States, No. 19-5805 (S. Ct.), it
arrives here in a factually more substantial and cleaner vehicle.
Because the Eleventh Circuit applied its prior panel precedent in Maxwell,
which was for unintended recipients, the panel necessarily reached the wrong
results concerning to Fard’ loss and restitution amount arguments. This Court
should grant certiorari to consider the viability of the “government benefits” rule
in procurement contracts for set aside programs once and for all.

34

Applying the government benefits rule in fraudulent inducement cases
causes unfair sentencing and unjust restitution amount for cases when the
Government receives products/services and the Defendant fully performs.

It

would provide the Government with the opportunity to keep the benefits of
perfect performance while demanding restitution of the entire amount of the
funding received by the Defendant. That cannot be the law. This case presents
an ideal vehicle to consider just that.
To protect the integrity of this Court’s decisions, resolve the circuit split,
and stop this criminalization of normal business operation, this Court must
grant review.
CONCLUSION
For the foregoing reasons, this Court should grant the petition.

August 17, 2020

Respectfully submitted,

Akbar Ghaneh Fard
Pro se
1699 W. Oak Dr. Uriit 257
Dalton, GA 30721
(813)468-5919
ghaneha@hotmail.com

